           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



  PERFORMANCE MEASURE SURVEY
       OF THE PERCENT OF
        800-NUMBER CALLS
      HANDLED ACCURATELY

     August 2001   A-08-01-11024




 MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

      Conduct and supervise independent and objective audits and
      investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
      operations.
      Review and make recommendations regarding existing and proposed
      legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
      problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

      Independence to determine what reviews to perform.
      Access to all information necessary for the reviews.
      Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                            (j~" SECu
                                                                   ~
                                                        ~
                                                        \      11IIII1
                                                                     ~~
                                                            :ti'-l[STi-~

                                      SOCIAL                  SECURITY
                                          Office   of the Inspector        General
MEMORANDUM
                                                                                     Refer To:
        August   14, 2002
To      Larry G. Massanari
        Acting Commissioner
         of Social Security
From:
        Inspector General

        Management      Advisory Report: Performance    Measure Survey of the Percent of
        800-Number      Calls Handled Accurately (A-08-01-11 024)



        The Government Performance and Results Act of 1993 (GPRA), Public Law 103-62,
        requires the Social Security Administration  (SSA) to develop performance   indicators
        that assess the relevant service levels and outcomes of each program activity. GPRA
        also calls for a description of the means employed to verify and validate the measured
        values used to report on program performance.     The objective of our planned audit was
        to assess the reliability of data SSA used to measure the following Fiscal Year (FY)
        1999 GPRA performance        indicator.

           Percent of BOO-number calls handled accurately:

           Payment accuracy       -95.0
           Service accuracy-       90.0

        BACKGROUND

        The Agency's Performance and Accountability Report for Fiscal Year 2000
        (Accountability Report) contains performance indicators related to its strategic goal of
        delivering customer-responsive, world-class service. One of the performance indicators
        cited in the Accountability Report relates to the percent of 800-number calls handled
        accurately during FY 1999. Specifically, the indicator provides goals of 95 percent and
        90 percent accuracy in responding to payment-related and service-related calls,
        respectively.

        To improve service and convenience for SSA's customers, the Agency implemented a
        toll-free, 800-number in October 1988 for public use in contacting SSA's teleservice
        centers (TSC). Using this number, among other items, callers can request applications
        for Social Security numbers, Social Security statements, verification of monthly benefit
        amounts, Medicare information, and information on local field offices and Medicare
        carriers. In FY 1999, SSA responded to 58.8 million calls through the 800-number, the
        largest amount of calls served in the number's history.
Page 2 – Larry G. Massanari

To ensure the accuracy of information SSA employees provide to 800-number callers,
the Office of Quality Assurance and Performance Assessment (OQA) conducts an
evaluation of the national 800-number service. The results of this evaluation serve as
the direct source of the 800-number accuracy rates reported in SSA’s Accountability
Report.

In performing the 800-number evaluation, OQA uses staff in Regional OQAs (ROQA) to
remotely monitor a random sample of 800-number calls every day. Each ROQA
samples calls from all 10 regions. OQA assesses call accuracy based on whether
teleservice representatives (TSR) and/or SPIKES1 adhered to national procedures and
operating guidelines when responding to callers’ questions. The Agency considers calls
to be handled accurately when neither payment errors nor service errors occur in the
sample calls.

The SSA National 800 Number Teleservice Evaluation Monitoring Instructions provide
explicit definitions and examples of all types of errors that could result when SSA
employees respond to 800-number calls. In general, when an SSA response to a call
has the reasonable potential to affect payment or eligibility, SSA includes any resulting
errors in the payment accuracy rate. The service accuracy rate represents the
percentage of calls that are free from errors that do not have a reasonable potential to
improperly affect payment or eligibility of benefits. Service errors involve situations that
can (1) result in inconveniences to the public, (2) cause additional SSA workloads, or
(3) result in situations where information is improperly released from SSA records or
reports.

In documenting their evaluations, ROQA staff prepares a separate 800-number
teleservice evaluation data entry form for each successfully monitored 800-number call.
This form uses alpha and alphanumeric codes to capture call data and error results.
ROQAs submit the completed data entry forms to OQA’s Office of Statistics and
Special Area Studies, Division of Public Service Evaluation. For each monitored
800-number call an SSA employee handles incorrectly, the ROQA also completes an
evaluation feedback form. The monitor describes his/her specific findings on the
feedback form.

OQA provides the results of the 800-number evaluations and recommendations for
improvements in 800-number service quality to the Associate Commissioner for the
Office of Telephone Services (OTS). In its Accountability Report, SSA reported the
Agency met its FY 1999 payment accuracy goal with a 95.4 percent rate. However, the
Agency did not meet its service accuracy goal, achieving a rate of only 81.8 percent in
FY 1999.2

1
 SPIKES are employees located at SSA’s program service centers who respond to 800-number calls
during high volume (spike) periods.
2
 Since 1997, SSA has not met its service accuracy goal. The Agency reported to have met its payment
accuracy goal in FY 1997 (95.2 percent) and FY 1999, as reported above.
Page 3 – Larry G. Massanari


SCOPE AND METHODOLOGY
In developing an approach and methodology for our planned audit, we conducted
research into OQA’s process for evaluating 800-number accuracy. Specifically, we
examined SSA’s Accountability Report, OQA’s FY 1999 evaluation report of
800-number accuracy, and the 800-number evaluation monitoring instructions. In
addition, we held discussions with 800-number coordination officials in OQA, the
Birmingham TSC, OTS, and the Atlanta ROQA. Furthermore, with the assistance of
our statistician, we reviewed OQA’s sampling plan to determine whether it appeared
statistically sound. Finally, we reviewed SSA’s methodology for calculating both
800-number accuracy rates. We performed this survey work in Birmingham, Alabama,
from September 2000 through January 2001.

Based on our survey results, we determined that we could not accomplish our audit
objectives. Accordingly, we ceased further work and are issuing this management
advisory report.

SURVEY RESULTS

We were unable to audit the FY 1999 performance measure because SSA did not
maintain adequate source documentation. Specifically, in performing their 800-number
evaluations, ROQA personnel did not routinely document the callers’ questions and/or
requests. Additionally, unless ROQA personnel identified an error made by a
TSR/SPIKE, they did not document SSA personnel’s response to the caller. As a result
of this significant gap in documentation, we could not determine whether ROQA
personnel properly assessed the accuracy of all calls included in the sample, a key step
in our determination of data reliability.

Until SSA provides evidence of 800-number call facts sampled, it cannot meet the
(1) GPRA requirement that Agencies verify and validate measured values or
(2) requirements outlined in section II of Office of Management and Budget (OMB)
Circular A-123, Management Accountability and Control. 3

During our survey, we concluded that SSA’s sampling plan for this measure appeared
statistically sound. However, the Agency’s method for computing the 800-number
service accuracy rate was not consistent with the definition reflected in its Annual
Performance Plan. The definition stated the service accuracy rate represented SSA’s
success in responding to questions not related to payments. However, OQA computed
the service accuracy rate based on all calls, including those related to payment. To
ensure SSA properly reflects the 800-number accuracy rates, it should either exclude


3
 Transactions should be promptly and properly recorded, classified and accounted for to prepare timely
accounts and reliable financial and other reports. The documentation for transactions, management
controls, and other significant events must be clear and readily available for examination.
Page 4 – Larry G. Massanari

the number of calls related to payment from the service accuracy rate computation or
revise the definition of this measure in its Annual Performance Plan.

ROQA STAFF DID NOT ALWAYS DOCUMENT CALL FACTS WHEN ASSESSING
THE ACCURACY OF 800-NUMBER RESPONSES

The scope of ROQA’s 800-number review was limited to the verbal information
exchanged during the monitored telephone conversation between the TSR/SPIKE and
the caller. According to an OQA official, ROQA monitors did not prepare written
documentation of the facts of all calls—particularly those that were “simple” in nature,
such as the location of a field office. In most cases, the monitors only prepare a written
document if the TSR/SPIKE who handled the call made an error. The team leader of
the OQA 800-number evaluation told us auditors would have a difficult time
ascertaining the nature of the call and how the call was handled from these documents
because most monitors write in shorthand or provide sketchy details. We also
determined the Agency did not tape record any 800-number calls it received.
Accordingly, our ability to recreate the facts of the sampled calls was severely affected.

SSA developed a note-taking form for monitors to record call facts. However, use of
this form is not mandatory. When we requested one copy of a completed form from the
Atlanta ROQA, the 800-number coordinator told us none of the monitors could provide
one because they did not use the form. The coordinator explained the monitors’
knowledge/experience/resources negate the necessity of taking notes.

All the permanent monitors in the Atlanta ROQA who participated in the FY 1999
evaluation were former TSRs with a minimum of 5 years experience evaluating
800-number accuracy. The monitors have instant access to the same resources the
TSR/SPIKE uses to provide customer information/assistance. For example, if a caller
requests the address of the nearest field office, the monitor accesses the location
information data base during the call to assess the accuracy of the TSR/SPIKE’s
response. According to the 800-number coordinator in the Atlanta ROQA, the accuracy
of many calls can be assessed on-the-spot because the errors the TSR/SPIKE makes
are obvious. Also, she agreed that we would not have an audit trail for all calls
monitored by the Atlanta ROQA in FY 1999 because the staff only documented the
facts of the 800-number calls SSA handled erroneously.
Page 5 – Larry G. Massanari


THE SERVICE RATE COMPUTATION WAS NOT CONSISTENT WITH THE
DEFINITION

In computing the FY 1999 service accuracy rate reported in the Accountability Report,
OQA divided the number of nonpayment-related sample calls free from errors by the
total number of sampled calls, including payment-related calls. The OQA 800-number
review Team Leader confirmed that the base portion of the computation included calls
related to payments. However, in reporting the 800-number accuracy measure, SSA
defines service accuracy as “a measure of whether 800 number representatives
respond correctly to inquiries related to issues other than eligibility and payment of
benefits.”

The service accuracy rate reflected in the Accountability Report should correspond to
the definition. Therefore, in future 800-number evaluations, we believe OQA should
compute the service accuracy rate by dividing the number of sample calls free from
service-related errors by the total number of sampled service-related calls (that is,
exclude all payment-related calls from the denominator). This change would ensure the
two 800-number accuracy rates are comparable. The payment accuracy rate reflected
in the Accountability Report is computed by dividing the sample calls free from
payment-related errors by the payment universe. If SSA chooses to continue
calculating the service-related accuracy rate in the same manner, it should revise the
definition of this performance measure in future Annual Performance Plans and reports.

CONCLUSIONS AND RECOMMENDATIONS
As a result of insufficient documentation, we could not assess the reliability of the data
SSA used to measure the accuracy of its 800-number service. Through preliminary
research, we determined that ROQA personnel who monitored sampled calls did not
document caller questions and/or requests or TSR/SPIKE responses. Therefore, we do
not have sufficient data on which to base a reliability assessment.

Also, the FY 1999 800-number service accuracy rate does not properly reflect the
measure’s definition. SSA included payment-related calls in the service accuracy rate
computation, although the definition states service accuracy is a measure of the
accuracy of responses to non-payment questions.

For future 800-number evaluations, we recommend that SSA:

1. Revise procedures to require maintaining detailed support of all 800-number calls
   monitored by ROQAs to ensure compliance with GPRA and OMB standards. Such
   documentation should permit audit assurance of the discussion held between the
   caller and the TSC/SPIKE.
Page 6-   Larry G. Massanari

2. Revise the 800-number service accuracy rate computation or definition to ensure
   the reported results correspond to the definition and the reported payment accuracy
   rate.
 .
AGENCY      COMMENTS


SSA provided an alternative to our first recommendation. Specifically, the Agency
suggested OIG co-monitor 800-number calls with ROQA personnel when assessing the
reliability of the data used to compute this performance measure. SSA stated it had
previously considered documenting the details of ROQA-monitored calls; however, the
Agency determined it would not be cost-effective to do so and might still produce
unreliable results. In response to our second recommendation, SSA agreed to revise
the
howreported     definition of the service accuracy
      it is computed.                            . rate to provide a clearer description of


OIG RESPONSE

We acknowledge the Agency's determination that the requirements of our first
recommendation may not be cost-effective or reliable. Accordingly, we accept the
Agency's proposed alternative and agree to co-monitor a sample of 100 calls during the
testing phase of our next review of this performance measure.




                                                J~f~~
                                        I     James     G. Huse,   Jr.
                             Appendices
Appendix A – Acronyms
Appendix B – Agency Comments
Appendix C – OIG Contacts and Staff Acknowledgments
                                                        Appendix A

Acronyms
FY     Fiscal Year
GPRA   Government Performance and Results Act of 1993
OMB    Office of Management and Budget
OQA    Office of Quality Assurance and Performance Assessment
OTS    Office of Telephone Services
ROQA   Regional Office of Quality Assurance and Performance
       Assessment
SSA    Social Security Administration
TSC    Teleservice Center
TSR    Teleservice Representative
                  Appendix B

Agency Comments
MEMORANDUM


Date:      July   11,   2001                                                      Refer To: SlJ-3


To:




From:



Subject:   Office of the Inspector Genera1(OIG) Draft Management Advisory Report: "Perfonnance
           Measure Survey oftbe Percent of 800-Number Calls Handled Accurately " (A-O8-0l-ll024)-

           INFORMA TION


           We appreciateOIG's efforts in conducting this review. Our comments on the report
           recommendations are attached.

           Pleaselet us know if we may be of further assistance. Staff questionsmay be referred to
           Dan Sweeneyon extension 51957.

           Attachment:
           SSA Comments
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL (OIG) DRAFT
MANAGEMENT ADVISORY REPORT – PERFORMANCE MEASURE SURVEY OF THE
PERCENT OF 800-NUMBER CALLS HANDLED ACCURATELY (A-08-01-11024)

Recommendation 1

Revise procedures to require maintaining detailed support of all 800 number calls monitored by
Regional Office of Quality Assurance and Performance Assessment Offices (ROQA) to ensure
compliance with Government Performance and Results Act of 1993 and Office of Management
and Budget (OMB) standards. Such documentation should permit audit assurance of the
discussion held between the caller and the TSC/SPIKE.

Comment

We disagree. We have considered the suggested expansion of ROQA reviews of the 800 number
several times since we began monitoring calls in 1989. Each time we have reached the same
conclusion, i.e., not to require a detailed summary of all 800 number calls included in the
determination of the reported accuracy rates. ROQA staff are currently required to document all
incorrect call situations in order to provide Operations with information for training and
corrective action purposes. The ROQA staffs are also instructed to furnish Operations with
positive feedback on call situations that are exceptionally well handled.

Written summaries on all correct calls would result in an unwise expenditure of resources. Since
just a single ROQA employee monitors each sampled call, the employee could describe the
nature of the call in whatever terms he/she wanted. When the employee determined a particular
call was “correct,” the written summary would basically be written to support that position.
Therefore, “correct call” summaries would not provide “evidence” of 800 number call facts that
would allow a third party to determine the correctness of ROQA staff’s accuracy determination.
Currently, for correct calls, ROQA staff enter in the data base the reason for the call, the
program(s) involved and the response given by the 800 number personnel. There is no other
information that could be collected for these correct calls that would assist the Agency in its
management of the 800 number system. However, for purposes of validating its audit objectives,
OIG may wish to consider co-monitoring calls with ROQA analysts. This would allow OIG
auditors to assess the accuracy of the same calls to provide a measure of consistency with OQA
findings.

Recommendation 2

Revise the 800-number service accuracy rate computation or definition to ensure the reported
results correspond to the definition and the reported payment accuracy rate.

Comment

We do not believe a revision of the computation of the service accuracy rate to exclude payment-
related calls would provide an accurate measure of service accuracy. Service errors, i.e., major


                                              B-1
failures in service that have no reasonable potential to affect payment or eligibility, are recorded
on payment-related as well as non-payment related calls. For example, 800 number
representatives can provide accurate payment-related information, but fail to ask the caller to
provide all required identifying information in order to release information from SSA records.
Therefore, all 800 number calls (including payment-related calls) should be included in the
denominator of the service accuracy computation.

We agree that the definition of service accuracy reflected in the Accountability Report needs to
be modified to more clearly state how the service accuracy rate is computed. In future reports, we
will revise the definition to reflect that service errors include major service delivery failures that
do not have a reasonable potential to improperly affect payment or eligibility and state that
service accuracy reflects the percentage of calls free of such failures.




                                                 B-2
                                                                      Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

    Kimberly A. Byrd, Acting Director, Operations Audit Division, (205) 801-1605

Acknowledgements
In addition to those named above:

    Reginia Grider, Auditor-In-Charge, (205) 801-1608
    Ellen Justice, Auditor
    Kimberly Beauchamp, Writer/Editor
    Brennan Kraje, Statistician


For additional copies of this report, please contact Office of the Inspector General’s
Public Affairs Specialist at (410) 966-5998. Refer to Common Identification Number
A-08-01-11024.
                           DISTRIBUTION SCHEDULE

                                                                             No. of
                                                                            Copies

Commissioner of Social Security                                                  1
Management Analysis and Audit Program Support Staff, OFAM                       10
Inspector General                                                                1
Assistant Inspector General for Investigations                                   1
Assistant Inspector General for Executive Operations                             3
Assistant Inspector General for Audit                                            1
Deputy Assistant Inspector General for Audit                                     1
 Director, Systems Audit Division                                                1
 Director, Financial Management and Performance Monitoring Audit Division        1
 Director, Operational Audit Division                                            1
 Director, Disability Program Audit Division                                     1
 Director, Program Benefits Audit Division                                       1
 Director, General Management Audit Division                                     1
Issue Area Team Leaders                                                         25
Income Maintenance Branch, Office of Management and Budget                       1
Chairman, Committee on Ways and Means                                            1
Ranking Minority Member, Committee on Ways and Means                             1
Chief of Staff, Committee on Ways and Means                                      1
Chairman, Subcommittee on Social Security                                        2
Ranking Minority Member, Subcommittee on Social Security                         1
Majority Staff Director, Subcommittee on Social Security                         2
Minority Staff Director, Subcommittee on Social Security                         2
Chairman, Subcommittee on Human Resources                                        1
Ranking Minority Member, Subcommittee on Human Resources                         1
Chairman, Committee on Budget, House of Representatives                          1
Ranking Minority Member, Committee on Budget, House of Representatives           1
Chairman, Committee on Government Reform and Oversight                           1
Ranking Minority Member, Committee on Government Reform and Oversight            1
Chairman, Committee on Governmental Affairs                                      1
Ranking Minority Member, Committee on Governmental Affairs                    1
Chairman, Committee on Appropriations, House of Representatives               1
Ranking Minority Member, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 House of Representatives                                                     1
Chairman, Committee on Appropriations, U.S. Senate                            1
Ranking Minority Member, Committee on Appropriations, U.S. Senate             1
Chairman, Subcommittee on Labor, Health and Human Services, Education
 and Related Agencies, Committee on Appropriations, U.S. Senate               1
Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations,
 U.S. Senate                                                                  1
Chairman, Committee on Finance                                                1
Ranking Minority Member, Committee on Finance                                 1
Chairman, Subcommittee on Social Security and Family Policy                   1
Ranking Minority Member, Subcommittee on Social Security and Family Policy    1
Chairman, Senate Special Committee on Aging                                   1
Ranking Minority Member, Senate Special Committee on Aging                    1
Vice Chairman, Subcommittee on Government Management Information
  and Technology                                                              1
President, National Council of Social Security Management Associations,
  Incorporated                                                                1
Treasurer, National Council of Social Security Management Associations,
  Incorporated                                                                1
Social Security Advisory Board                                                1
AFGE General Committee                                                        9
President, Federal Managers Association                                       1
Regional Public Affairs Officer                                               1


Total                                                                        97
              Overview of the Office of the Inspector General


                                    Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of
the Social Security Administration’s (SSA) programs and makes recommendations to
ensure that program objectives are achieved effectively and efficiently. Financial
audits, required by the Chief Financial Officers Act of 1990, assess whether SSA’s
financial statements fairly present the Agency’s financial position, results of operations,
and cash flow. Performance audits review the economy, efficiency, and effectiveness
of SSA’s programs. OA also conducts short-term management and program
evaluations focused on issues of concern to SSA, Congress, and the general public.
Evaluations often focus on identifying and recommending ways to prevent and minimize
program fraud and inefficiency.

                              Office of Executive Operations
OEO supports the OIG by providing information resource management; systems
security; and the coordination of budget, procurement, telecommunications, facilities
and equipment, and human resources. In addition, this office is the focal point for the
OIG’s strategic planning function and the development and implementation of
performance measures required by the Government Performance and Results Act.
OEO is also responsible for performing internal reviews to ensure that OIG offices
nationwide hold themselves to the same rigorous standards that we expect from SSA,
as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates
responses to Congressional requests for information, and also communicates OIG’s
planned and current activities and their results to the Commissioner and Congress.


                               Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related
to fraud, waste, abuse, and mismanagement of SSA programs and operations. This
includes wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters,
representative payees, third parties, and by SSA employees in the performance of their
duties. OI also conducts joint investigations with other Federal, State, and local law
enforcement agencies.

                         Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the
Inspector General on various matters, including: 1) statutes, regulations, legislation,
and policy directives governing the administration of SSA’s programs; 2) investigative
procedures and techniques; and 3) legal implications and conclusions to be drawn from
audit and investigative material produced by the OIG. The Counsel’s office also
administers the civil monetary penalty program.
